         National Science Foundation      •   4201 Wilson Boulevard     •   Arlington, Virginia 22230
                                         Office of Inspector General


MEMORANDUM

DATE:         March 22, 2013

TO:           Jeffrey M. Lupis, Director
              Division of Acquisition and Cooperative Support (DACS)

FROM:         Dr. Brett M. Baker
              Assistant Inspector General for Audit

SUBJECT: Revised NSF OIG Audit Report No. OIG-13-1-001, Incurred Cost Audit of
         University of Wisconsin-Madison’s IceCube Cooperative Agreements


The Defense Contract Audit Agency (DCAA) revised its incurred cost audit report of the
University of Wisconsin-Madison’s IceCube Cooperative Agreements, which we had previously
issued to your office (NSF OIG Audit Report No. OIG-13-1-001, dated November 6, 2012). The
revision was necessary to correct subcontract costs questioned for the    subaward because of
an error found in DCAA’s original report schedule applicable to that subaward. Correction of
the error resulted in increased     subaward costs questioned of $346,343; therefore, total
IceCube costs questioned increased from $1,788,036 to $2,134,379. DCAA provided the
updated costs questioned to the awardee on December 5, 2012. We are providing you with
DCAA’s revised audit report (attached) and our revised transmittal memo.

As stated in our original transmittal memo dated November 6, 2012, we contracted with DCAA’s
Tri-State Branch Office to perform an incurred cost audit of approximately $218.8 million of
interim incurred direct costs claimed on University of Wisconsin-Madison’s (UW-M) IceCube
project under NSF Award Nos. ANT-0236449, ANT-0639286, and ANT-0937462. 1 The $218.8
million in claimed costs included use of approximately $44 million in budgeted contingency
costs (20%) that NSF awarded under the construction cooperative agreement no. ANT-0236449.
The period of performance audited was from August 1, 2002 through June 30, 2011. The
attached DCAA audit report includes UW-M’s response.




1
 The NSF IceCube Cooperative Agreements were awarded to fund the design, development, and construction of an
86-string array of mirrors in Antarctica, designed to capture and record neutrinos falling and embedded in the
Antarctic ice.

                                                      1
The objectives of the audit were to 1) determine the allowability of UW-M’s interim direct costs
claimed to NSF under the cooperative agreements; 2) evaluate UW-M’s use and accounting for
its NSF-awarded contingency costs; 3) determine whether UW-M complied with notice
requirements related to the use of contingency funds under the established Change Control
Process; 4) determine whether UW-M complied with: applicable Cost Accounting Standards
(CAS), disclosed accounting practices in its CAS Disclosure Statement (DS-2), OMB Circular
A-21 and OMB Circular A-110; and 5) report any instances of noncompliance with laws,
regulations, provisions of the cooperative agreements and potential internal control weaknesses,
which impact UW-M’s ability to comply with the requirements in the cooperative agreements
and for the use of contingency funds.

DCAA performed its audit of UW-M in accordance with Generally Accepted Government
Auditing Standards, with the exception that DCAA does not currently have an external opinion
on its quality control system. The results of the DCAA audit are summarized below.

Results of Audit

DCAA questioned $2,134,379 of travel and “other” costs and opined that UW-M has not
complied, in all material respects, with federal requirements applicable to the cooperative
agreements. The interim incurred direct costs are not acceptable as submitted. The audit
disclosed internal control weaknesses regarding UW-M’s IceCube Change Control Process and
identified instances where UW-M did not comply with applicable CAS, disclosed cost
accounting practices, OMB Circular A-21 and OMB Circular A-110 requirements. As a result,
DCAA has recently issued a CAS Noncompliance Report to formally address the noncompliance
issues. That report (OIG Report No. OIG-13-1-003) will be provided under a separate OIG
memorandum. Working through the noncompliance process could result in additional questioned
costs.

UW-M’s claimed costs and DCAA’s questioned costs are summarized in the table below.

                              UW-M Actual Costs through 6/30/2011                                Questioned
                         Cooperative      Cooperative     Cooperative      Cooperative          Cooperative       Cooperative
                         Agreement        Agreement        Agreement       Agreement            Agreement         Agreement
      Cost Element         0236449         0639286          0937462         0236449              0639286           0937462
Salaries               $ 21,973,558     $ 4,106,756      $ 1,141,008
Fringe Benefits            7,631,880        1,560,386         446,808
Equipment                55,064,816           355,654          62,390
Supplies                   2,807,245          218,630           6,974
Domestic Travel            1,069,500            63,525         21,115               6,785
Foreign Travel               981,329            76,521         39,852
Tuition/Fee Allocation       144,481
Subagreements            62,921,296    2,962,879               215,327
Other Expenditures       50,638,713         3,495,649          789,248          2,127,594
Less Unallowable Costs           (320)
Indirect F&A Costs
 Total                 $203,232,498     $ 12,840,000     $   2,722,722   $ 2,134,379        $                 $

Contingency Costs      $ --                                              $ --




                                                               2
The questioned costs of $2,134,379 and other significant issues are described below.

• UW-M did not provide adequate supporting documentation for reclassifying its budgeted
and       subawards to service agreements. Reclassifying the subawards resulted in UW-M
claiming increased indirect Facilities and Administrative (F&A) costs of              for
and            for       (totaling $2,127,594) over the indirect allocation that UW-M would have
received on the subawards. The F&A costs increased because UW-M’s                 F&A rate is
allocable to the entire amount of service agreement costs, whereas subaward costs in excess of
$25,000 are excluded from receiving an F&A allocation per federal regulations.

Both        and       were identified as subawards in budgets submitted to and approved by NSF.
Subaward purchase orders were established with both vendors with start dates of August 1, 2004.
By not obtaining written NSF approval, UW-M unilaterally changed their classification from
subawards to service agreements without adequate written documentation to justify these
changes. However, UW-M did not provide written notification to NSF of its changes, despite
their increasing F&A costs by $2.1 million. In the case of        , it appears     s objection to
the subaward arrangement was the primary reason for UW-M’s change, but               objection did
not serve as adequate justification for the change. Thus, DCAA questioned the increased F&A
costs UW-M claimed for the           and       subawards after the August 1, 2004 subaward start
dates through completion. In questioning these increased costs, DCAA cited UW-M’s
accounting practice as being noncompliant with UW-M’s CAS Disclosure Statement (DS-2) and
OMB Circular A-21 G.2, which state that subgrant and subcontract costs in excess of $25,000
are to be excluded from the Modified Total Direct Cost F&A allocation base.

• UW-M improperly direct charged an employee’s relocation costs to the IceCube cooperative
agreement, so DCAA questioned               accordingly. UW-M’s practice is to normally charge
relocation costs as indirect F&A expenses. However, UW-M did not provide the justification
required by its CAS disclosure statement (DS-2) for charging the questioned relocation as direct
costs. DCAA cited UW-M’s accounting practice as being noncompliant with CAS 502 (48 CFR
9905.502-40), which states that “all costs incurred for the same purpose, in like circumstances,
are either direct costs only or indirect costs only with respect to final cost objectives.” Further,
DCAA notes that NSF’s Grant Policy Manual, (7/1/05), Chapter VI, Item 624, states that
relocation costs may be charged direct to an NSF grant provided that the proposal specifically
indicates that the grantee intends to hire a named individual for full-time work on the project.
However, the UW-M did not identify the employee in its proposal and, therefore, did not meet
the NSF requirement for direct-charging his relocation expenses. As a result, DCAA questioned
the $       charged directly to the NSF award.

• Although the scope of DCAA’s audit did not include an examination of indirect costs, DCAA
noted that UW-M commingled indirect F&A costs within an internal account and claimed
indirect F&A expenses as direct costs on NSF’s cooperative agreements. (Indirect F&A costs are
included in direct cost element “Other Expenditures”). UW-M’s proposals submitted to NSF
identify indirect F&A costs as a separate line item. Therefore, DCAA cited this accounting
practice as being noncompliant with CAS 501 [48 CFR 9905.501-40(b)], which states that “an
educational institution's cost accounting practices used in accumulating and reporting actual
costs for a contract shall be consistent with the institution's practices used in estimating costs in

                                                  3
pricing the related proposal.” Also, OMB Circular A-110 C.21.b.4 states that recipients’
financial management systems shall provide for a comparison of outlays with budget amounts
for each award. While UW-M stated that it generated monthly journal transactions that charged
the IceCube projects the appropriate F&A expense and were clearly designated, DCAA stated
that “identifying the F&A transactions was not consistent or clear,” and that “some transfers
included both direct costs and F&A costs combined in the total transfer amount. This would
require UW-M to manually review each journal entry to identify the F&A costs included in the
total transfer amount.” However, UW-M was unable to provide a transactional detail breakout of
F&A costs in a timely manner during the audit. Therefore, DCAA did not quantify the impact of
the noncompliance in this incurred cost audit report. However, DCAA stated that its CAS
noncompliance report would address the issues.

• UW-M’s cooperative agreement budget includes nearly $44 million of contingency costs.
However, contingency costs were not accumulated and tracked in a manner consistent with how
they were estimated. Specifically, UW-M did not properly segregate and account for its
expenditure of contingency funds in its accounting records, so there was no trackability for this
significant cost element. When contingency funds were expended, UW-M commingled these
expenditures among its several direct cost elements and did not identify or maintain visibility of
contingency costs, or differentiate the associated indirect F&A costs that resulted from
expenditures of contingency funds. CAS 501 [48 CFR 9905.501-40(b)] states that “an
educational institution's cost accounting practices used in accumulating and reporting actual
costs for a contract shall be consistent with the institution's practices used in estimating costs in
pricing the related proposal.” Also, OMB Circular A-110 C.21.b.4 states that recipients’
financial management systems shall provide for a comparison of outlays with budget amounts
for each award. UW-M’s accounting system must be able to accumulate actual costs in such a
manner so that proposed budget line items (at whatever level of detail proposed) can be
compared with actual costs. UWM’s accounting practices do not meet this requirement for
contingency costs; therefore DCAA cited UW-M with CAS 501 and OMB Circular A-110
noncompliance.

An additional inconsistency between UW-M’s accounting and estimating practices was in the
application of indirect F&A costs to contingencies. UW-M proposed the contingency costs
under the category “Other Direct Costs” (as illustrated in proposals submitted to NSF) and
indirect F&A rates were not applied to these proposed costs. However, during the review of
UW-M’s contingency change requests in the budget execution phase, DCAA noted that UW-M
applied its indirect F&A rate         ) to contingency expenditures (for cost elements such as
labor, travel, materials and supplies). As a result of this and the lack of tracking actual
contingency expenditures previously discussed, DCAA was unable to determine the amount of
total indirect F&A costs claimed as a result of UW-M applying its indirect F&A rate to its
contingency expenditures. Therefore, DCAA did not quantify the impact of the noncompliance
in its incurred cost audit report. However, DCAA addresses the noncompliance issues in its CAS
Noncompliance Report.




                                                  4
Scope Limitations

DCAA qualified its audit report and stated that the results of audit are limited because UW-M is
noncompliant with its disclosed cost accounting practices, OMB Circular A-21, OMB Circular
A-110, CAS 501 and CAS 502. DCAA addresses these issues in its CAS Noncompliance
Report.

The scope of DCAA’s audit did not include an examination of indirect costs. UW-M claimed its
indirect F&A costs as direct costs (as noted above), and DCAA tested only a limited number of
indirect cost calculations using previously agreed upon indirect rates. Therefore, DCAA
expressed no opinion on the indirect costs for the subject cooperative agreements.


Internal Control Weaknesses

DCAA reported internal control weaknesses and made recommendations concerning UW-M’s
IceCube Change Control Process. Two internal control deficiencies are discussed below.

• NSF approval of Change Requests. The first internal control deficiency addressed NSF
approval of Change Requests. DCAA recommended that UW-M forward all Class 1/Level 1
IceCube Change Request forms to NSF for approval and signature. This will ensure that NSF
receives the same level of detail UW-M uses to internally approve changes and will document
NSF’s approval of the change, including the name of the NSF official and date of approval.

• UW-M’s IceCube Change Control Process. DCAA recommended that UW-M revise its
Change Control Process to clearly define those changes to total project costs that are considered
Class1/Level1 changes requiring NSF approval.


UW-M’s Reaction and Auditor’s Response

UW-M agreed with the internal control findings, but disagreed with DCAA’s audit findings
relating to all other areas. DCAA considered UW-M’s response in its final audit report, but did
not change its audit position. UM-W’s reaction and DCAA’s response are included in the
attached report.




                                                5
Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

1. Resolve the $2,134,379 in questioned travel and indirect F&A costs applied to subawards
   that were reclassified as professional services.
2. Require UW-M to correct the cited internal control weaknesses and implement the corrective
   actions noted in its response.

Recommendations addressing the noncompliance issues will be provided in DCAA’s CAS
noncompliance report.

We consider the issues in this report to be significant. In accordance with OMB Circular A-50,
please coordinate with our office during the six-month resolution period to develop a mutually
agreeable resolution of the audit findings. Accordingly, we request that your office work with
UW-M to develop a written Corrective Action Plan detailing specific actions taken and/or
planned to address each report recommendation. Milestone dates should be provided for
corrective actions not yet completed. Also, the findings should not be closed until NSF
determines that the recommendation has been adequately addressed and the proposed corrective
actions have been satisfactorily implemented.

We are providing a copy of this memorandum to NSF officials. The responsibility for audit
resolution rests with DACS. Accordingly, we ask that no action be taken concerning the report’s
findings without first consulting DACS at (703) 292-8242.


OIG Oversight of Audit

To fulfill our responsibilities to ensure that DCAA complied with Generally Accepted
Government Auditing Standards, the Office of Inspector General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
       audit progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards and Office of Management and Budget
       Circulars; and
   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on UW-M’s incurred costs of IceCube
cooperative agreements and the conclusions expressed in the report.




                                              6
We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor at (703) 292-5003 or Jannifer
Jenkins at (703) 292-4996.


Attachment :
DCAA Audit Report No. 3191-2012W17900002 (Revised); Independent Audit of University of
Wisconsin-Madison Incurred Costs of Cooperative Agreement Nos. ANT-0236449, ANT-
0639286, and ANT-0937462 for the Period August 1, 2002 through June 30, 2011, dated October
5, 2012.



cc:    Kelly Kenison Falkner, OPP
       Scott Borg, OPP
       Kristin Spence, DACS
       Martha Rubenstein, BFA
       Mary Santonastasso, DIAS
       Mark Coles, MPS
       Clifford Gabriel, OD
       Scott Horner, LFO




                                              7
